Appendix A

26

Case 2:17-cr-00804-GMS Document 171 Filed 10/02/18 Page 1 of 5

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
United States of America

JUDGMENT IN A CRIMINAL CASE

V.

(For Offenses Committed On or After November I, 1987)

James Dee Gilmore, Jr.

No. CR-17-00804-001-PHX-GMS
Michael J. Bresnehan (CJA)

Attorney for Defendant

USM#: 74059-408
THERE WAS A VERDICT OF guilty on 9/14/2017 as to Counts 1 and 2 of the Indictment.
ACCORDINGLY, THE COURT HAS ADJUDICATED THAT THE DEFENDANT IS GUILTY
OF THE FOLLOWING OFFENSE(S): violating Title 21, U.S.C. § 952(a), 960(a), and enhanced
pursuant to Title 21, U.S.C. § 851, Importation of Methamphetamine, a Class A Felony offense, as
charged in Count I of the Indictment; Title 21, U.S.C. § 84l(a)(l) and 841(b)(l)(A)(viii), and
enhanced pursuant to Title 21, U.S.C. § 851. Possession with Intent to Distribute Methamphetamine, a
Class A Felony offense, as charged in Count 2 of the Indictment.
IT IS THE JUDGMENT OF THIS COURT THAT the defendant is committed to the custody of the
Bureau of Prisons for a term of ONE HUNDRED FIFTY-ONE (151) MONTHS, which consists of
ONE HUNDRED FIFIY-ONE (151) MONTHS on Count l and ONE HUNDRED FIFTY-ONE
(151) MONTHS on Count 2, said counts to run concurrently, with credit for time served. Upon release
from imprisonment, the defendant shall be placed on supervised release for a term of SIXTY (60)
MONTHS, which consists of SIXTY (60) MONTHS on Count I and SIXTY (60) MONTHS on
Count 2, said counts to run concUITently.
The defendant's interest in the following property shall be forfeited to the United States: 2002 Chevy
Truck, Arizona License Plate No. CAF8597, Vehicle Identification No. 2GCE19V621 l 15338
The Court recommends that the defendant participate in the Bureau of Prisons Residential Drug Abuse
Treatment Program and the defendant be placed in an institution in or near Arizona.
CRIMINAL MONETARY PENALTIES
The defendant shall pay to the Clerk the following total criminal monetary penalties:
SPECIAL ASSESSMENT: $200.00

FINE: WAIVED

RESTITUTION: NIA

The defendant shall pay a special assessment of $200.00 which shall be due immediately.
The Court finds the defendant does not have the ability to pay a fine and orders the fine waived.

27

Case 2:17-cr-00804-GMS Document 171 Filed 10/02/18 Page 2 of 5
Page 2 ofS

CR-17-00804-001-PHX-GMS
USA vs. James Dee Gilmore, Jr.

The defendant shall pay a total of $200.00 in criminal monetary penalties, due immediately. Having
assessed the defendant's ability to pay, payments of the total criminal monetary penalties are due as
follows: Balance is due in equal monthly installments of $25.00 over a period of 8 months to
commence 60 days after the release from imprisonment to a term of supervised release.
If incarcerated, payment of criminal monetary penalties are due during imprisonment at a rate of not less than $25 per quarter
and payment shall be made through the Bureau of Prisons' Inmate Financial Responsibility Program. Criminal monetary
payments shall be made to the Clerk of U.S. District Court, Attention: Finance, Suite 130, 40 l West Washington Street, SPC 1,
Phoenix, Arizona 85003-2118. Payments should be credited to the various monetary penalties imposed by the Court in the
priority established under 18 U.S.C. § 3612(c). The total special assessment of $200.00 shall be paid pursuant to Title 18,
United States Code, Section 3013 for Count I and 2 of the Indictment.
Any unpaid balance shall become a condition of supervision and shall be paid within 90 days prior to the expiration of
supervision. Until all restitutions, fines, special assessments and costs are fully paid, the defendant shall immediately notify the
Clerk, U.S. District Court, of any change in name and address. The Court hereby waives the imposition of interest and penalties
on any unpaid balances.

SUPERVISED RELEASE
It is ordered that while on supervised release, the defendant must comply with the mandatory and
standard conditions of supervision as adopted by this court,. in General Order 17-18, which incorporates
the requirements of USSG §§ SBl.3 and 5D1.2. Of particular importance, the defendant must not
commit another federal, state, or local crime during the tenn of supervision. Within 72 hours of
sentencing or release from the custody of the Bureau of Prisons the defendant must report in person to
the Probation Office in the district to which the defendant is released. The defendant must comply with
the following conditions:
MANDATORY CONDITIONS

l)
2)
3)

You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance. The use or possession of marijuana,
even with a physician's certification, is not permitted.
You must refrain from any unlawful use of a controlled substance. The use or possession of
marijuana. even with a physician's certification, is not pennitted. Unless suspended by the Court,
you must submit to one drug test within 15 days of release from imprisonment and at least two
periodic drug tests thereafter, as determined by the court.
STANDARD CONDITIONS

l)

You must report to the probation office in the federal judicial district where you are authorized
to reside within 72 hours of sentencing or your release from imprisonment, unless the probation
officer instructs you to report to a different probation office or within a different time frame.

28

�ase l:11-cr-UUHU4-<.5MS Document 171 Filed 10/02/18 Page 3 of 5
CR-17-00804-001-PHX-GMS
USA vs. James Dee Gilmore, Jr.
2)

3)
4)
5)

6)

7)

8)

9)
10)

11)
12)

13)

Page 3 of5

After initially reporting to the probation office, you will receive instructions from the court or
the probation officer about how and when you must report to the probation officer, and you must
report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside
without first getting permission from the court or the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live
or anything about your living arrangements (such as the people you live with), you must notify
the probation officer at least 10 days before the change. If notifying the probation officer in
advance is not possible due to unanticipated circumstances, you must notify the probation
officer within 72 hours of becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and
you must permit the probation officer to take any items prohibited by the conditions of your
supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the
probation officer excuses you from doing so. If you do not have full-time employment you must
try to find full-time employment, unless the probation officer excuses you from doing so. If you
plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If
notifying the probation officer at least 10 days in advance is not possible due to unanticipated
circumstances, you must notify the probation officer within 72 hours of becoming aware of a
change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity.
If you know someone has been convicted of a felony, you must not knowingly communicate or
interact with that person without first getting the pennission of the probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation
officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or
dangerous weapon (i.e., anything that was designed, or was modified for, the specific purpose of
causing bodily injury or death to another person such as nunchakus or tasers).
You must not act or make any agreement with a law enforcement agency. to act as a confidential
human source or informant without first getting the permission ofthe court.
If the probation officer determines that you pose a risk to another person (including an
organization), the probation officer may require you to notify the person about the risk and you
must comply with that instruction. The probation officer may contact the person and confirm
that you have notified the person about the risk.
You must follow the instructions of the probation officer related to the conditions of

29

case 2:17-cr-00804-GMS Document 171 Filed 10/02/18 Page 4 of 5
CR-I 7-00804-001-PHX-GMS
USA vs. James Dee Gilmore, Jr.

Page 4 of5

supervision.

SPECIAL CONDITIONS
The following special conditions are in addition to the conditions of supervised release or supersede
any related standard condition:
1)

2) ·

3)

4)
5)

6)
7)

You must participate as instructed by the probation officer in a program of substance abuse
treatment (outpatient and/or inpatient) which may include testing for substance abuse. You must
contribute to the cost of treatment in an amount to be detennined by the probation officer.
You must submit your person, property, house, residence, vehicle, papers, or office to a search
conducted by a probation officer. Failure to submit to a search may be grounds for revocation of
release. You must warn any other occupants that the premises may be subject to searches
pursuant to this condition.
You must provide the probation officer with access to any requested financial information and
authorize the release of any financial infonnation. The probation office may share financial
information with the U.S. Attorney's Office.
You are prohibited froni making major purchases, incurring new financial obligations, or
entering into any financial contracts without the prior approval ofthe probation officer.
You must comply with the standard condition of supervision requiring full-time employment at
a lawful occupation. This may include participation in training, counseling, and/or daily job
searching as directed by the probation officer. If not in compliance with the condition of
supervision, the defendant may be required to perform up to 20 hours of community service per
week until employed as approved or directed by the probation officer.
You must not use or possess alcohol or alcoholic beverages.
You must cooperate in the collection of DNA as directed by the probation officer.

8)

THE COURT FINDS that you have been sentenced in accordance with the terms of the plea

agreement and that you have waived your right to appeal and to collaterally attack this matter. The
waiver has been knowingly and voluntarily made with a factual basis and with an understanding of the
consequences ofthe waiver.
The Court may change the conditions of probation or supervised release or extend the term of
supervision, if less than the authorized maximum, at any time during the period of probation or
supervised release. The Court may issue a warrant and revoke the original or any subsequent sentence
for a violation occurring during the period ofprobation or supervised release.

30

.

.

case 2:17-cr-00804-GMS Document 171 Filed 10/02/18 Page 5 of 5

.

Page 5 of

CR-17-00804-001-PHX-GMS
USA vs. James Dee Gilmore, Jr.

5

The Court orders commitment to the custody of the Bureau of Prisons and recommends that the
defendant participate in the Bureau of Prisons Residential Drug Abuse Treatment Program and the
defendant be placed in an institution in Arizona.

i

The defendant is remanded to the custody of the United States Marshal.
Date of Imposition of Sentence: Monday, October 01, 2018
Dated this 2nd day of October, 2018.

.

�

G. Murray
Chief United state

RETIJRN
I have executed this Judgment 11S rouows:

• the institution

______ to _______ at
designated by the Bureau or Prisons with a ccitificd copy thisjudgment in a Criminal case.
defendant ddivcrcd on

or

United States Marshal

LR-17-00k114.IKII-PHX-'.i�-1S- Gilmore

By:

Deputy Maisha!

9/27/2018- 3:17 PM

31

